HHS/OIG, Audit - "Review of Connecticuts Title IV-E Adoption Assistance
Costs for State Fiscal Years 2002 Through 2004," (A-01-06-02506)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review
of Connecticuts Title IV-E Adoption Assistance Costs for State Fiscal Years
2002 Through 2004," (A-01-06-02506)
February 8, 2007
Complete Text of Report is available in PDF format (566 kb). Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The Federal Government shares in the States’ costs of adoption assistance payments for children who meet supplemental security income (SSI) requirements or other specific requirements. Our objective was to determine whether the Connecticut Department of Children and Families (the State agency) complied with Federal eligibility requirements in claiming adoption assistance payments for Federal reimbursement.
The State agency complied with Federal eligibility requirements in claiming adoption assistance payments for 702 of the 1,000 children whose cases we reviewed for State fiscal year (SFY) 2002. However, the remaining 298 children did not meet Federal eligibility requirements. None of these children met the SSI requirements, nor did any of them meet all of the other requirements for Federal reimbursement. The State agency continued to claim adoption assistance payments for all 298 ineligible children in SFY 2003 and for 294 of these children in SFY 2004. As a result, the State agency overclaimed $4.3 million (Federal share) in adoption assistance payments for SFYs 2002 through 2004.
We recommended that the State agency make a financial adjustment of $2.8 million on its next Federal Quarterly Report of Expenditures for children who did not meet income eligibility requirements, work with the Administration for Children and Families to resolve $1.5 million in overpayments for children who did not meet judicial determination requirements, and conduct reviews of adoption assistance payments claimed after our review to ensure compliance with Federal reimbursement requirements. The State agency concurred with our recommendations.